                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




      EVALUATION OF THE CORPORATION’S
   OMB CIRCULAR A-133 REPORTS MONITORING
                 PROCESS

                     OIG REPORT 12-09




                  1201 New York Ave, NW
                        Suite 830
                   Washington, DC 20525

                        (202) 606-9390




This report was issued to Corporation management on May 11, 2012. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later
than November 13, 2012 and complete its corrective actions by May 13, 2013.
Consequently, the reported findings do not necessarily represent the final
resolution of the issues presented.
                                   Office of Inspector General




                                          May 11,2012

TO:           Margaret Rosenberry
              Director, Office of Grants Management

FROM :        Stuart Axenfeld  ~* A- IJ_I)
              Assistant Inspector General for ~. \

SUBJECT:      Office of Inspector General (OIG) Report 12-09: Evaluation of the Corporation's
              OMB Circular A-133 Reports Monitoring Process

Attached is the final report on the OIG's Evaluation of the Corporation's OMB Circular A-133
Reports Monitoring Process . This evaluation was performed by OIG staff in accordance with
the Quality Standards for Inspection and Evaluation.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by November 13,2012. Notice of final action is due by May 13, 2013.

If you have questions pertaining to this report, please contact Thomas Chin, Audit Manager, at
(202) 606-9362 or t.chin@cncsoig.gov; or me at (202) 606-9360 or s.axenfeld@cncsoig.gov.

Attachment

cc:   Robert Velasco II, Chief Operating Officer
      Douglas Hilton, Acting Chief Financial Officer
      Rocco Gaudio, Deputy CFO for Grants and Field Financial Management Center
      Claire Moreno, Audit Liaison, Office of Grants Management




                   1201 New York Avenue, NW  *          *
                                                Suite 830  Washington, DC 20525
                      202-606-9390  *Hotline: 800-452-8210* www.cncsoig.gov

                        Senior Corps * AmeriCorps * Learn and Serve America
                                                            CONTENTS

Section                                                                                                                        Page

Executive Summary ........................................................................................................... 1

Evaluation Conclusions ...................................................................................................... 2

Results of Evaluation ......................................................................................................... 3

Objectives, Scope, and Methodology ................................................................................. 7

Background ........................................................................................................................ 8

Exit Conference .................................................................................................................. 9

Corporation Response ....................................................................................................... 9

OIG Comment .................................................................................................................... 9



Appendix

A: Corporation’s Response to Draft Report


                                                    TABLE OF ACRONYMS

                                   CFO         Chief Financial Officer
                                   FFMC        Field Financial Management Center
                                   FY          Fiscal Year
                                   GMS         Grants Management Specialist
                                   GO          Grants Officer
                                   OGM         Office of Grants Management
                                   OIG         Office of Inspector General
                                   OMB         Office of Management and Budget
                                   ORI         Operation REACH, Inc.
                                                               EXECUTIVE SUMMARY

Office of Management and Budget (OMB) Circular A-133 Audits of States, Local
Governments, and Non-Profit Organizations establishes audit requirements and defines
Federal agencies’ responsibilities for implementing and monitoring requirements for
organizations receiving direct or indirect Federal awards. OMB Circular A-133 requires
recipients of Federal grant awards to have internal controls which provide reasonable
assurance that their use of resources is:

         Consistent with laws, regulations, and award terms;
         Safeguarded against waste, loss, and fraud; and
         Fairly disclosed in reliable reports.

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), performed an evaluation of the Corporation’s OMB Circular A-133 (A-133
or “Single Audit”) reports monitoring process. Our objectives were to determine whether
the Corporation: (1) tracks, monitors, and ensures that required grantees submit their A-
133 reports; and (2) follows up on grantees’ corrective actions based on their audit
findings.

Our evaluation focused on the review of the A-133 reports issued in Fiscal Year (FY)
2009, during which the Corporation awarded and oversaw more than $780 million in
grants to states, tribes, local communities, and nonprofit grantees. Of the issues we
identified in the Corporation’s review and evaluation of A-133 reports, we are particularly
concerned that three of the findings (1, 2, and 5) are repeat findings, from previously
issued OIG reports1, involving weaknesses relating to obtaining and resolving A-133
reports. We noticed that these findings are still outstanding and remained unresolved.
Generally, we found that there was a lack of follow-up activities by the Corporation’s
grants officers, and a lack of understanding of the terms and requirements of A-133
reports on their part.

Specifically, our performance testing, conducted from September 2011 through January
2012, resulted in these findings:


                                                            
1
  OIG Report 98-02, Review of Corporation for National and Community Service Pre-Award
Financial Assessment of Grant Applicants, issued in April 1998, reported that Corporation’s
Grants Management Office did not always collect information required for assessing grantees,
such as information from single audit reports (A-133 reports). OIG Report 99-12, Audit of the
Corporation for National and Community Service’s Fiscal Year 1998 Financial Statements, issued
in April 1999, reported that the Corporation lacked a routine methodology for obtaining and
reviewing grantees’ single audit reports. OIG Audit report 01-14, Review of the Corporation’s Use
of Single Audit Reports, issued in February 2001, reported that the Corporation’s management
controls for collection and use of single audit information are inadequate. It reported that
procedures at the Corporation did not provide reasonable assurance that the Corporation is
aware that the required single audits are being performed, or that single audit information is being
obtained, reviewed, tracked, and resolved in accordance with the requirements of OMB Circular
A-133. Furthermore, OIG Report 03-02, FY 2002 Financial Statement Audit Management Letter,
noted that for five of the ten organizations for which the Corporation had oversight, management
decisions and final actions related to the A-133 reports were not issued on a timely manner. It
was also reported in OIG Report 04-02, FY 2003 Financial Statement Audit Management Letter,
that A-133 audit findings were not resolved timely.


                                                                       1
    1. Non-compliance with OMB Circular A-133 and Corporation Policy and
       Procedures on Issuing Management Decisions;
    2. Lack of Adequate Follow Up on Findings and Corrective Action Plans;
    3. Grants Officers’ Lack of Understanding of A-133 Report Audit Terms and
       Findings;
    4. Discrepancies Between the A-133 Report Population Maintained by the
       Corporation and the Federal Audit Clearinghouse; and
    5. A-133 Reports Are not Reviewed During the Grants Close Out Process.

We noted that the Corporation’s Office of Grants Management (OGM) initiated an
assessment of its’ A-133 review process prior to our evaluation and conducted a
refresher training for grants officers on how to review A-133 reports in September 2011
(two weeks before we conducted our interviews with grants officers). We noted that not
all the grant officers attended the training; however, the majority of grant officers who
attended the training said it was helpful. To build on this positive development, we
recommend that the Corporation conduct comprehensive, periodic, mandatory training
for all grants officers involved in the A-133 review process.


                               EVALUATION CONCLUSIONS

The Corporation’s mechanism used to review and evaluate A-133 reports needs to be
clarified, strengthened, and enforced. Our interviews with grants officers and our review
of the A-133 documentation in eGrants revealed a knowledge gap on A-133 audit terms
and requirements. We observed that the Corporation has designed controls, such as
policies and procedures for the proper review and documentation of A-133 audits.
However, these controls are not operating effectively, and some of the policies and
procedures are not being implemented.

To address these issues, we recommend that the Corporation:

      Ensure management decisions are issued on audit findings that will impact the
       Corporation, as required by the OMB Circular A-133.

      Retain and track management decisions issued in response to A-133 report
       findings.

      Follow up on all questioned costs and audit findings identified in A-133 reports on
       a timely basis and collect amounts due to the Corporation.

      Ensure that all A-133 reports of grantees are reviewed and that grantees take
       appropriate and timely corrective actions on audit findings.

      Request and review any management letter associated with the report to identify
       other internal control issues that may impact the programs funded by the
       Corporation. Any inability or unwillingness by the grantee to correct A-133
       findings should result in sanctions deemed appropriate by the Corporation.

      Conduct in-depth, periodic mandatory training for grants officers on how to
       review, research, and document A-133 findings that relate to the Corporation.



                                            2
       The training should also include the process used to identify internal control
       deficiencies, follow-up activities, and the definitions of audit terminology.

      Document all follow up actions in eGrants, as required by the Corporation’s
       policies and procedures, to include specific risks or concerns, details of
       monitoring performed, the results, and the parties involved in the monitoring
       activities.

      Perform periodic reconciliation between the A-133 grantees’ records maintained
       by the Corporation and the A-133 report population maintained in the Federal
       Audit Clearinghouse. Differences should be researched and resolved.

      Include in the Corporation’s policies and procedures a requirement to review the
       most recent A-133 audit reports during the grants close out process to ensure
       that there are no outstanding questioned costs due to the Corporation.


                                 RESULTS OF EVALUATION

Finding 1.   Non-compliance with OMB Circular A-133 and Corporation Policy and
             Procedures on Issuing Management Decisions.

Management decisions were not issued for the majority of the 25 grantees in our
sample. We found that only 16 percent of the sampled grantees had management
decisions recorded in eGrants. All 25 grantees in our sample had material weaknesses
in FY 2009. A material weakness is a deficiency, or a combination of deficiencies, in
internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis. Our interviews with grants officers further revealed that management
decisions on A-133 audits are not typically issued. This is a repeat finding from the OIG
audit report 01-14, issued in February 2001, and OIG audit report 03-02 (FY 2002
Financial Statement Audit Management Letter).

In accordance with OMB Circular A-133 Subpart D. 400(c)(5), as well as the
Corporation’s Policy, CFO-102-2009-1 Audit Resolution Under the Single Audit Act, the
Corporation must issue a management decision on audit findings within six months after
receipt of the audit report and ensure that the recipient takes appropriate and timely
corrective action. Final action must be completed by the grantee within 12 months of the
receipt of the audit report.

Recommendations

We recommend that the Corporation:

   1a. Ensure management decisions are issued on audit findings that will impact the
       Corporation, as required by the OMB Circular A-133; and

   1b. Retain and track management decisions issued in response to A-133 report
       findings.




                                             3
Finding 2.               Lack of Adequate Follow Up on Findings and Corrective Action Plans.

There is a lack of evidence of follow up on audit findings and corrective action plans by
the Corporation. This is a repeat finding from the OIG audit report 01-14, issued in
February 2001, and OIG audit report 04-02 (FY 2003 Financial Statement Audit
Management Letter). OMB Circular A-50, Audit Followup, Section 8.a.(2), requires
prompt resolution and corrective actions on audit recommendations. It states that
resolution shall be made within a maximum of six months after issuance of a final report
or, in the case of audits performed by non-Federal auditors, six months after receipt of
the report by the Federal government and corrective action should proceed as rapidly as
possible. In addition, OMB Circular A-133 compliance requirements include adequate
monitoring and findings follow-up procedures to ensure that funding is used for
authorized purposes, pertinent laws, regulations, and provisions of the agreement. We
found insufficient evidence that the Corporation had performed adequate monitoring on
findings reported in the A-133 audit reports. 

For example, a questioned cost of $55,903 was reported in the Catholic Community
Services of Western Washington’s FY 2009 A-133 audit report. However, the grantee’s
A-133 report was not followed up on because the grants officer inaccurately recorded in
eGrants that there was no finding in eGrants.

During this evaluation and our ongoing grant audit of Operation REACH, Inc. (ORI), we
found that ORI was late in submitting its A-133 report. We further found that while the
Corporation noted in eGrants that ORI’s A-133 report was reviewed, it was unable to
provide supporting documentation to demonstrate that ORI’s A-133 audit findings were
communicated to two state commissions. Subsequently, grants totaling $466,461 were
awarded through two state commissions to ORI despite the fact that unresolved material
weaknesses had been identified in the A-133 report. As a result of the findings
discovered during our ORI grant audit, we initiated an investigation on ORI’s
administration of Corporation grants and issued a management alert to Corporation
senior management on our preliminary audit findings.

In addition, we found that 48 percent of the grantees with material weaknesses in FY
2010 had reoccurring material weaknesses from their FY 2009 A-133 reports or from
their FY 2009 financial statements audits. We further found that another 11 percent of
the grantees with material weaknesses in FY 2010 had significant deficiencies reported
in FY 2009. Also, 16 percent of our samples for FY 2009 review had significant
deficiencies in FY 2010. Also, we observed that grants officers did not consistently
request and review management letters2 issued by the grantees’ auditors.

OMB Circular A-50 states that the audit follow up official has personal responsibility for
ensuring that (1) systems of audit follow up, resolution, and corrective action are
documented and in place, (2) timely responses are made to all audit reports, (3)
disagreements are resolved, and (4) corrective actions are actually taken.




                                                            
2
  Management Letters identify issues not required to be disclosed in the auditor’s report but
represent the auditor’s concerns and suggestions noted during the audit.


                                                               4
Recommendations

We recommend that the Corporation:

   2a.   Follow up on all questioned costs and audit findings identified in A-133 reports
         on a timely basis and collect amounts due to the Corporation;

   2b.   Ensure that all A-133 reports of grantees are reviewed and that grantees take
         appropriate and timely corrective actions on audit findings; and

   2c.   Request and review any management letter associated with the report to
         identify other internal control issues that may impact the programs funded by
         the Corporation. Any inability or unwillingness by the grantee to correct A-133
         findings should result in sanctions deemed appropriate by the Corporation.


Finding 3.   Grants Officers’ Lack of Understanding of A-133 Report Audit Terms
             and Findings.

The Corporation’s grants officers are designated the responsibility for monitoring and
following up on audit findings of the organizations within their portfolios. However, we
noted that several grant officers could not clearly identify and differentiate different types
of audit opinions and/or audit findings (material weakness and significant deficiency).
During our interviews with grant officers, we found that several of them did not fully
comprehend the extent and gravity of the audit findings. As a result, they recorded
incorrect A-133 report results and audit resolution information in eGrants. For example,
we found that many grant officers inaccurately recorded that there were no audit findings
(in the findings box within the eGrants’ Grant Officer’s Certification Screen) when
material weaknesses had been reported in the A-133 reports for findings related to the
Corporation. Entering erroneous information in eGrants inhibits the Corporation’s
opportunity to follow up on the audit findings or develop effective risk profiles for grantee
monitoring purposes.

Additionally, audit findings for 75 percent of the sampled grantees were not recorded in
the audit resolution function in eGrants, as required by the Corporation’s policies and
procedures. In some instances, grants officers indicated in eGrants that there were
audit findings; however, there was no description of the finding in eGrants. The
Corporation’s A-133 eGrants Audit Resolution Procedures describe the established
protocol for recording A-133 audit findings. It states “[i]f the A-133 has findings and the
grant management specialist indicates “yes” in the findings box on the GO [Grants
Officer] certification screen, the GMS [Grants Management Specialist] must also set up a
record for the organization and its A-133 audit in the audit resolution function in
eGrants.” It further states that the “Corporation uses the Audit Resolution component of
eGrants to record and track the resolution process for all A-133 audits of our grantees
with monetary, internal control or compliance findings.”

Furthermore, we were told by grants officers that their lack of knowledge on A-133
terminology and proper documentation in eGrants was due to insufficient training. The
majority of grants officers interviewed requested additional training on A-133 audit terms
and requirements, as well as training on the process used to identify and record audit
findings in different modules within eGrants.


                                              5
Recommendations

We recommend that the Corporation:

   3a. Conduct in-depth, periodic mandatory training for grants officers on the process
       used to review, research, and document A-133 findings that relate to the
       Corporation. The training should also include how to identify internal control
       deficiencies, follow-up activities, and the definitions of audit terminology; and

   3b. Document all follow up actions in eGrants, as required by the Corporation’s
       policies and procedures, to include specific risks or concerns, details of
       monitoring performed, the results, and the parties involved in the monitoring
       activities.


Finding 4.   Discrepancies Between the A-133 Report Population Maintained by
             the Corporation and the Federal Audit Clearinghouse.

We found there were inconsistencies between the list of oversight organizations
maintained by the Corporation and the list maintained by the Federal Audit
Clearinghouse (harvester database). We further found that a reconciliation of A-133
report population maintained by OGM and that maintained by the harvester database
was not performed, as reflected by the discrepancies we identified. For example, we
found that Weber Human Services, Human Resources Development Corporation, and
Public Allies, for which the Corporation had oversight responsibilities, were included in
the A-133 report population extracted from the harvester database, but were not
included in the Corporation’s A-133 report population, which indicates the Corporation’s
listing is incomplete. We were unable to obtain a clear explanation from the Corporation
for the cause of the discrepancies.

Maintaining a comprehensive list of grantees for which the Corporation has oversight
responsibilities provides more effective monitoring and ensures that grantees that should
have filed A-133 reports are in compliance with the applicable regulations. The
Corporation’s A-133 eGrants Audit Resolution Procedures, “General Policies” Section,
No. 4 states that the A-133 Audit Resolution Coordinator is responsible for “[m]aintaining
the list of organizations for which CNCS [Corporation] is cognizant or [has] oversight
[responsibility].” This responsibility includes maintaining accurate and reliable listing of
A-133 grantees.

During the course of this evaluation, the OIG offered OGM assistance with maintaining a
complete listing of A-133 grantees for which the Corporation has oversight
responsibilities.   However, due to the recent deep congressional budget cuts
experienced by our office for FY 2012, we will be unable to provide such assistance.
The Corporation will have to develop a mechanism for ensuring it maintains a complete
listing of A-133 grantees.




                                             6
Recommendation

We recommend that the Corporation:

   4. Perform periodic reconciliation between the A-133 grantees’ record maintained
      by the Corporation and the A-133 report population maintained in the Federal
      Audit Clearinghouse. Differences should be researched and resolved.


Finding 5.   A-133 Reports Are not Reviewed During the Grants Close Out
             Process.

During our interviews with grants officers, we found that A-133 reports are not reviewed
during the grant close out process. The Corporation currently has no requirement to
review A-133 reports during close out of grants. This is a repeat finding from the OIG
audit report 01-14, issued in February 2001. As a best management practice, A-133
audit reports should be reviewed during the grant close out process to mitigate the risk
of overlooking questioned costs determined to be due to the Corporation.

Recommendation

We recommend that the Corporation:

   5. Include in the Corporation’s policies and procedures a requirement to review the
      most recent A-133 audit reports during the grants close out process to ensure
      that there are no outstanding questioned costs due to the Corporation.


                        OBJECTIVES, SCOPE, AND METHODOLOGY

We conducted this evaluation in accordance with the Quality Standards for Inspection
and Evaluation issued by the Council of the Inspectors General on Integrity and
Efficiency.

Our objectives were to determine whether the Corporation: (1) tracks, monitors, and
ensures that required grantees submit their A-133 reports; and (2) follows up on
grantees’ corrective actions based on their audit findings.  

We performed our evaluation from August 2011 to January 2012. The evaluation
focused on the review of A-133 reports issued in FY 2009. We selected a judgmental
sample of 25 A-133 audit reports from a population of grantees that had material
weaknesses identified in their reports. We performed a detailed review of all grantees in
our sample for evidence of audit follow up and completion of corrective action plans.

Our procedures included a review of A-133 audit reports, prior OIG audit reports, the
eGrants grant history reports, and eGrants documentation from the Grants Officer’s
Certification Screen, Monitoring Screen, and Audit Screen. We also reviewed applicable
laws and regulations (such as OMB Circular A-133 and OMB Circular A-50), and
Corporation’s OGM policies and procedures on A-133 review and monitoring.




                                           7
We conducted our evaluation at the Corporation’s headquarters in Washington, DC and
the Field Financial Management Center (FFMC) in Philadelphia, PA. We interviewed
grants officers regarding their roles, responsibilities, and experience with A-133 reviews.
The interviews were conducted in person at the Corporation’s headquarters and FFMC,
and via telephone. In addition, we interviewed OGM’s Audit Resolution Specialist and
had discussions with the Director of OGM and the Deputy Chief Financial Officer for
Grants and FFMC to obtain an understanding of the Corporation’s A-133 review
process.


                                      BACKGROUND

The Congress enacted the Single Audit Act of 1984 (subsequently amended in 1996) to
ensure uniformity among Federal agencies for the audit of nonfederal entities expending
Federal awards. The OMB Circular A-133 Audits of States, Local Governments, and
Non-Profits Organizations implements the Single Audit Act. The Single Audit Act
mandates that non-Federal entities expending $500,000 or more annually in Federal
awards have a single or program-specific audit conducted for that year. Any Corporation
grantee expending $500,000 or more in Federal funds in a year (the grantee’s FY) must
conduct a Single Audit in accordance with the OMB Circular A-133 and submit the report
and data collection form to the Federal Audit Clearinghouse managed by the
Department of Commerce. The results of the audit are recorded in the Federal Audit
Clearinghouse for use by Federal agencies to monitor their grantees.

Single Audits are performed in accordance with the Government Auditing Standards.
They provide valuable information on Corporation grantees, including financial reporting,
internal controls, compliance with Federal laws and grant provisions, and performance of
their grants. This independent information can assist the Corporation in its evaluation of
the financial management capabilities of grant applicants, and its oversight and
monitoring of current grantees.

In addition, the Single Audit Act requires Federal agencies, including the Corporation, to
review the reports, track and follow up on Single Audit findings, and issue management
decisions to ensure that grantees take appropriate corrective actions. The OMB Circular
A-133 requires that the Federal agency issues a management decision within six months
of receipt of the audit report on findings that relate to the awards it makes to recipients.
OMB Circular A-133 also addresses actions that Federal agencies should take, including
withholding Federal funds, if a grantee does not to comply and obtain a Single Audit.

At the Corporation, management and oversight of grants occurs at different
organizational levels, depending upon the program involved. OGM and FFMC are the
operating units primarily responsible for grant awards issuance, monitoring, and close
outs. The grants officers use eGrants, an in-house grants information system, to
document and track grant activities, including the review of A-133 reports.




                                             8
This evaluation is a follow up on five previously-issued OIG reports (refer to footnote 1
for details) that identified weaknesses related to monitoring and resolving issues
identified in A-133 reports.


                                   EXIT CONFERENCE

We discussed the contents of this report with Corporation representatives at the exit
conference on January 23, 2012. We summarized the Corporation's response to the
draft report below and included its response, in its entirety, as Appendix A.


                                CORPORATION RESPONSE

The Corporation stated that its own review on A-133 review and follow-up processes
identified similar findings as reported by OIG. The Corporation also stated that DIG's
recommendations were very helpful to the Corporation as it considers alternatives to the
current approach and role of the A-133 review. The Corporation plans to establish a
final overall corrective action plan after OIG issues the final report.


                                     OIGCOMMENT

While the Corporation did not address our findings and recommendations individually,
we acknowledge that the Corporation plans to take corrective actions during the audit
resolution process.    We will assess the Corporation's implementation of our
recommendations during the audit resolution process.




Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service




                                            9
             Appendix A

Corporation’s Response to Draft Report




                 10
                                                                             NATIONAL&!
                                                                             COMMUNITY
                                                                                                           1201 New York Avenue, NW
                                                                                                           Washington, DC 20525
                                                                                                           202-606-5000
                                                                             SERVICEtXte                   NationalService.gov



             To:               Stuart Axenfeld, Assistant Inspector General for                      ~

             From:                                                            ~-~~
                               Douglas H. Hilton, Acting Chief Financial Officer  'I~
                                                                                 ~~                   "


             Date:             May 11, 2012

             Subject:          Response to OIG Draft Report on the Evaluation of the Corporation's OMB
                               Circular A-133 Reports Monitoring Process


             Thank you for the opportunity to comment on the OIG draft audit of the Corporation's A-133
             audit review processes. The Office of Grants Management assessed our A-133 audit review and
             follow-up processes in its own 2011 internal control review. That review identified similar
             fmdings as the OIG evaluation and identified additional areas where we need to revise procedures
             or systems for A-133 review as follows:

             •     Re-design the audit resolution component of eGrants to reflect procedures for A-133 audits;

             •     Update the procedures to define expectations for management decisions related to A-133
                   audits; and

             •     Clarify expectations for tracking A-133 audit follow-up.

             The IG's recommendations were very helpful to the Field Financial Management Center and the
             Office of Grants Management as we consider alternatives to our current approach and the role of
             our A-133 reviews in our overall approach to monitoring our grantees, including State Service
             Commissions. Additionally we note the Office of Management and Budget is currently
             reviewing the Circular A-133 for possible modifications. We will establish final overall
             corrective action plan after receipt of the final OIG Report.




             cc:      Rocco Gaudio, Deputy CFO for Grants and Field Financial Management
                      Peg Rosenberry, Director of Grants Management
                      Kim Mansaray, Deputy Chief Operating Officer




DISASTER SERVICES I ECONOMIC OPPORTUNITY I EDUCATION I ENVIRONMENTAL STEWARDSHIP I HEALTHY FUTURES I VETERANS AND MILITARY FAMILIES

                               AMERICORPS I SENIOR CORPS I SOCIAL INNOVATION FUND
